Audit of USAID/El Salvador’s Reconstruction of
Schools, Healthcare Facilities, and Other Infrastructure
Projects Under the Earthquake Reconstruction
Program

Audit Report No. 1-519-04-009-P

August 10, 2004




              San Salvador, El Salvador
August 10, 2004


MEMORANDUM
FOR:           USAID/El Salvador Director, Mark Silverman

FROM:          Regional Inspector General/San Salvador, Steven H. Bernstein
               “/s/”

SUBJECT:       Audit of USAID/El Salvador’s Reconstruction of Schools,
               Healthcare Facilities, and Other Infrastructure Projects Under the
               Earthquake Reconstruction Program (Report No. 1-519-04-009-P)

This memorandum transmits our report on the subject audit. In finalizing this report,
we considered your comments on our draft report and have included your response
in Appendix II.

The report includes no recommendations for your action. Once again, thank you for
the cooperation and courtesy extended to my staff throughout the audit.




                                                                                   1
This page intentionally left blank.




                                      2
Table of   Summary of Results                                                      5
Contents
           Background                                                               5

           Audit Objectives                                                         6

           Audit Findings                                                           6

                  Were USAID/El Salvador’s reconstruction activities of schools,
                  healthcare facilities, and other infrastructure on schedule to
                  achieve planned outputs?                                          6

           Management Comments and Our Evaluation                                   7

           Appendix I – Scope and Methodology                                       9

           Appendix II – Management Comments                                       11




                                                                                    3
This page intentionally left blank.




                                      4
Summary of   As part of its fiscal year 2004 audit plan, the Regional Inspector General/San
Results      Salvador performed this audit to determine whether USAID/El Salvador’s
             Earthquake Reconstruction Program outputs were on schedule to be completed by
             September 30, 2004 (page 6).

             As of the time of our site visits, USAID/El Salvador’s reconstruction activities of
             schools, healthcare facilities, and other infrastructure were on schedule to achieve
             planned outputs by September 30, 2004 (page 6).

             The Mission agreed with the results of the audit but noted that a small number of
             projects would not be completed by September 30, 2004 (page 7).



Background   During the first two months of 2001, two powerful earthquakes struck El
             Salvador. According to a USAID/El Salvador web-page, the earthquakes killed
             over 1,159 persons and wounded 8,122. The disasters affected 1.5 million people
             or 25 percent of the country’s population. The Mission designed a program that
             focused on revitalizing the social infrastructure of the rural poor. The program
             included reconstructing or repairing schools, childcare centers, clinics, markets
             and municipal office buildings.

             In May 2003 the Government Accountability Office (GAO) issued an audit report
             that included findings on the USAID/El Salvador’s earthquake reconstruction
             program. As related to reconstruction or repairing schools, childcare centers,
             clinics, markets, and municipal office buildings, the GAO’s report (GAO-03-656)
             noted that several of these projects did not begin on schedule.

             USAID/El Salvador budgeted about $32 million to rebuild or repair 175 projects
             that were damaged or destroyed during the two earthquakes. In May 2001, the
             Mission officially began its earthquake reconstruction program by approving the
             activities that would be implemented. At the time of the audit, the Mission’s
             deadline for program activities was September 30, 2004.1 Details related to the
             type of projects and budgets, obligations, and expenditures as of March 31, 2004
             by category are provided below in table 1.




             1
                 The strategic objective grant agreement between USAID/El Salvador and the government of El
                 Salvador was originally set to expire on September 30, 2003, but was extended to September 30,
                 2004.



                                                                                                             5
             Table 1 – Program budgets, obligations, and expenditures (amounts not audited)

                                                                 As of March 31, 2004
                 Activity                                  Budget        Obligated                 Expended
                    Schools                             $8,992,000      $8,984,637                 $4,767,221
                    Public Health                        4,935,714       4,935,714                  3,067,891
                    Water & Sanitation                   9,585,230       9,545,728                  9,460,578
                    Markets                              3,450,000       3,450,000                    947,330
                    Municipal Buildings                  3,673,500       3,673,500                    820,874
                    Miscellaneous Small                  1,311,000       1,248,583                    884,056
                      Infrastructure Projects2
                 Total                                 $31,947,444           $31,838,162          $19,947,950



Audit        As part of its fiscal year 2004 audit plan, the Regional Inspector General/San
Objectives   Salvador performed this audit to answer the following question:

                   •   Were USAID/El Salvador’s reconstruction activities of schools, healthcare
                       facilities, and other infrastructure on schedule to achieve planned outputs?

             Appendix I contains a discussion of the audit's scope and methodology.



Audit        As of the time of our site
Findings     visits, USAID/El Salvador’s
             reconstruction activities of
             schools, healthcare facilities,
             and other infrastructure were
             on schedule to achieve
             planned outputs by September
             30, 2004.

             Site visits were conducted
             between March 18, 2004 and
             April 19, 2004. Conclusions
             that individual projects were             Photograph taken in March 2004 of an Office of
             on schedule were determined               Inspector General auditor and project personnel
             considering    the    physical            inspecting a reconstruction project site near Sonsonate,
                                                       El Salvador.
             progress of the project noted
             2
                 The miscellaneous category included small scale bridges, water systems, schools, health clinics,
                 and road improvements.



                                                                                                                  6
             during site visits compared against completion dates specified in project
             agreements, construction plans, and construction schedules. The progress
             observed, considered with planned start dates and planned durations, led to
             conclusions that activities could be completed on schedule. Specifically, in
             assessing whether projects were on schedule we considered the following:

                 • Completion dates outlined in project agreements

                 • Planned amount of time required to complete the project

                 • Construction plan at site

                 • Physical progress compared to agreement and construction schedules

                 • Time remaining before September 30, 2004 deadline

                 • Planned corrective action, if required

             Results from visits to 60 randomly selected projects showed that program
             activities were on schedule. Details regarding the progress of the 60 projects that
             were on schedule are presented in table 2.

             Table 2 – Status of projects visited as of the date of site visits

                                                                                 Not
              Project Type                Completed        In Process        Started       Total
              Schools                            13                 7              3         23
              Public Health                       1                 1              0           2
              Water & Sanitation                 16                 0              0         16
              Markets                             0                 1              1           2
              Municipal Buildings                 0                 2              0           2
              Miscellaneous Small                13                 2              0         15
              Infrastructure Projects
              Total                                 43              13            4           60



Management   The Mission agreed with the results of the audit but noted that a small number of
Comments     projects would not be completed by September 30, 2004. According to Mission
             management, the completion date has been extended until November 2004 for 5 of
and Our
             the 175 projects. This represents approximately 3 percent of the projects under the
Evaluation   earthquake reconstruction program. Based on the significance criteria established to
             determine the significance of our findings, this would not have affected our audit
             conclusion.




                                                                                               7
This page intentionally left blank.




                                      8
                                                                                   Appendix I


Scope and     Scope
Methodology
              The Regional Inspector General/San Salvador conducted this audit in accordance
              with generally accepted government auditing standards.

              The earthquake reconstruction program developed 175 projects. The audit was
              conducted at the offices of USAID/El Salvador and at 60 project sites throughout
              the country. According to Mission records, approximately $32 million had been
              obligated for earthquake reconstruction program infrastructure activities.

              In planning and performing the audit, we assessed the effectiveness of
              management controls related to monitoring housing construction progress. The
              management controls identified included monthly monitoring reports, program
              supervision by activity managers, use of performance management plan to monitor
              results, and oversight provided by the U.S. Army Corps of Engineers.

              Audit fieldwork was conducted from February 17 through June 7, 2004.

              Methodology

              To determine whether earthquake reconstruction activities were on schedule, we
              reviewed project agreements, construction plans, construction schedules, and
              visited project sites. At project sites, we toured the works and assessed whether
              progress was consistent with agreements and plans. We also assessed whether
              there were obvious deficiencies in the construction completed. Our review of
              progress was limited to tasks that could be carried out by lay persons, not
              professional engineers. Some of these included the following:

                 •    Examining floors for cracks

                 •    Examining pipes and faucets for leaks

                 •    Examining water tanks for leaks

                 •    Checking that floors were level and walls were plumb

                 •    Checking water pressure

                 •    Determining whether roofs had been installed

                 •    Noting flaking in masonry or mortar




                                                                                             9
Our site visit strategy was based on a statistical sample that used an expected error
rate of five percent and was designed to provide 95 percent confidence with
plus/minus four percent precision. The resulting sample size was 60 projects, out
of 175.

To determine the significance of our findings, we considered the following:

Opinion        Significance Criteria
Positive       More than 90 percent of the items tested were on schedule to be
               completed by September 30, 2004.

Qualified      Between 80 and 90 percent of the items tested were on schedule
               to be completed by September 30, 2004.

Negative       Less than 80 percent of the items tested were on schedule to be
               completed by September 30, 2004.




                                                                                  10
                                                                                       Appendix II


Management
Comments




         Date:          July 2, 2004

         To:            John Vernon, A/RIG/San Salvador

         From:          Mark Silverman, DIR

         Subject:       Audit of USAID/El Salvador’s Reconstruction of Schools, Healthcare
                        Facilities, and other Infrastructure Projects under the Earthquake
                        Reconstruction Program.


         We have reviewed your subject draft report and are pleased to know that your office has
         completed its audit of the non-housing infrastructure activities and that the audit report
         contains no recommendations for USAID action.

         We also agree that, although activities were on schedule at the time of audit, some of
         them are encountering schedule pressure that will delay completion beyond September
         30, 2004. The Mission will continue to monitor progress and encourage project
         completion as soon after September 30, 2004 as possible.




                                                                                                  11
